               Department of Veterans Affairs
               Office of Inspector General



                 Office of Healthcare Inspections

Report No. 13-04592-179




               Healthcare Inspection 


    Alleged Preventive Maintenance 

        Inspection Deficiencies 

    Northern Arizona VA Health Care 

                System 

           Prescott, Arizona 





June 9, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
        Alleged Preventive Maintenance Inspection Deficiencies, Northern Arizona VA HCS, Prescott, AZ



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection to assess the merit of allegations concerning medical equipment with expired
preventive maintenance inspections (PMIs). The confidential complainant alleged that
equipment with expired PMIs posed an immediate hazard to the safety of patients at the
Northern Arizona VA Health Care System (system), Prescott, AZ. It was further alleged
that:

    	 All respiratory therapy (RT) equipment had expired PMIs, with some
       exceeding expiration dates by several years, and that several pieces of
       equipment had inspection stickers indicating “routine inspection not
       applicable.”

    	 It was the expectation that RT equipment remain in use even with expired
       PMIs.

    	 Other departments had medical equipment with expired PMIs.

    	 The Biomedical Engineering (BME) Department is “short staffed.”

We did not substantiate the allegation that medical equipment with expired PMIs posed
an immediate hazard to the safety of patients. We found no evidence of medical
equipment failures or malfunctions that contributed to the death, serious injury, or
serious illness of any individual.

We did not substantiate the allegation that all of the RT equipment had expired PMIs,
with some exceeding expiration dates by several years, and that several pieces of
equipment had inspection stickers indicating “routine inspection not applicable.” We
found no RT equipment with expired PMIs or with inspection stickers indicating “routine
inspection not applicable.”

We did not substantiate the allegation that the expectation was for RT equipment to
remain in use with expired PMIs.

We substantiated the allegation that other departments had medical equipment with
expired PMIs. We found medical equipment with expired or missing safety inspection
labels and missing equipment entry numbers.

We substantiated the allegation that the BME Department is “short staffed.” We found
that the system was allocated four full-time equivalent BME technician positions but did
not fill the vacancies of two technicians who terminated their employment.

We recommended that the System Director initiate actions to address medical
equipment with expired PMIs and assess staffing in the BME Department and take
appropriate actions to meet the workload requirements.



VA Office of Inspector General                                                                      i
        Alleged Preventive Maintenance Inspection Deficiencies, Northern Arizona VA HCS, Prescott, AZ


Comments
The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes A and B,
pages 6–9 for the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                            JOHN D. DAIGH, JR., M.D.
                                                           Assistant Inspector General for
                                                             Healthcare Inspections




VA Office of Inspector General                                                                      ii
         Alleged Preventive Maintenance Inspection Deficiencies, Northern Arizona VA HCS, Prescott, AZ



                                                Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to assess the merit of allegations concerning medical equipment with
expired preventive maintenance inspections (PMIs)1 at the Northern Arizona VA Health
Care System (system), Prescott, AZ.

                                            Background 

The system is part of Veterans Integrated Service Network (VISN) 18 and includes the
main medical facility, the Bob Stump VA Medical Center in Prescott; five community
based outpatient clinics in Anthem, Kingman, Lake Havasu City, Flagstaff, and
Cottonwood; and a TeleHealth Clinic in Holbrook, AZ. The Bob Stump VA Medical
Center provides a continuum of primary and secondary level medical, rehabilitative, and
long-term care to veterans residing in northern Arizona.

In September 2013, a confidential complainant contacted the OIG Hotline Division
alleging that medical equipment at the system with expired PMIs posed an immediate
hazard to the safety of patients. It was further alleged that:

    	 All respiratory therapy (RT) equipment had expired PMIs, with some
       exceeding expiration dates by several years, and that several pieces of
       equipment had inspections stickers indicating “routine inspection not
       applicable.”

    	 It was the expectation for RT equipment to remain in use even with
       expired PMIs.

    	 Other departments had medical equipment with expired PMIs.

    	 The Biomedical Engineering (BME) Department is “short staffed.”

                               Scope and Methodology 

During an onsite visit October 28–29, 2013, we interviewed system managers,
clinicians, and other employees directly involved with receiving, testing, calibrating,
maintaining, and operating medical equipment. Several attempts to contact the
complainant by telephone and email were unsuccessful.

We reviewed Veterans Health Administration (VHA), The Joint Commission (TJC), and
system policies and procedures related to medical equipment. Additionally, we
reviewed root cause analyses, patient events and incident reports, peer reviews,

1
 A preventive maintenance inspection of biomedical equipment is a systematic inspection, detection, and correction
of possible failures either before they occur or before they develop into major defects.




VA Office of Inspector General                                                                                   1
        Alleged Preventive Maintenance Inspection Deficiencies, Northern Arizona VA HCS, Prescott, AZ


Automated Engineering Management System and Medical Equipment Reporting
System2 reports, and Patient Safety and Environment of Care Committee meeting
minutes. We inspected medical equipment in two acute care units (3B and 4B); two
community living centers; the emergency, respiratory therapy, and radiology
departments; and the ophthalmology, optometry, cardiology, and pulmonary outpatient
clinics.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




2
 Automated Engineering Management System and Medical Equipment Reporting System is a hospital computer
program equipment inventory and maintenance program. All medical equipment is required to be assigned an
equipment entry number and be entered into the system upon acquisition.




VA Office of Inspector General                                                                             2
         Alleged Preventive Maintenance Inspection Deficiencies, Northern Arizona VA HCS, Prescott, AZ



                                      Inspection Results 

Issue 1: Patient Safety

We did not substantiate the allegation that medical equipment with expired PMIs posed
an immediate hazard to the safety of patients.

We reviewed root cause analyses, patient events and incident reports, peer reviews,
and the Patient Safety and Environment of Care Committee Meeting minutes. We
found no evidence of medical equipment failures or malfunctions that contributed to the
death, serious injury, or serious illness of any individual.

Issue 2: Medical Equipment

RT Equipment with Expired PMIs. We did not substantiate the allegation that all RT
equipment had expired PMIs with some exceeding expiration dates by several years,
and that several pieces of equipment had inspection stickers indicating “routine
inspection not applicable.” We inspected 25 pieces of equipment in the RT Department
and found no equipment with expired PMIs or with inspection stickers indicating “routine
inspection not applicable.”

Expectation to Use RT Equipment with Expired PMIs. We did not substantiate the
allegation that it was the expectation for RT equipment to remain in use with expired
PMIs. We found no RT equipment with expired PMIs.

Equipment with Expired PMIs in Other Departments. We substantiated the allegation
that other departments in the system had medical equipment with expired PMIs. We
inspected 50 pieces of non-life support3 medical equipment in 7 patient care areas. We
found 27 (54 percent) pieces of medical equipment with expired safety inspection labels
ranging from 2 months to 2 years past due. Additionally, we found 17 (34 percent)
pieces of medical equipment with either missing safety inspection labels or missing
equipment entry numbers.4

We found that the system conducted a Joint Commission Mock Survey
August 20–22, 2013. The survey identified equipment items in the dental clinic, stress
echocardiography lab, Psychosocial Rehabilitation and Recovery Center, and Home
Based Primary Care Clinic that had expired safety inspections. Two automated external
defibrillator units were also found to have safety inspections that expired in 2012.
During the August 2013 environment of care rounds, expired safety inspections were
found on all eye testing equipment in the ophthalmology and optometry clinic. None of
3
  Non-life support refers to medical equipment that is not needed to sustain life. Examples of life-support medical
equipment include defibrillators, pacemakers, ventilators, anesthesia machines, intra-aortic balloon pumps, and
heart-lung machines.
4
  Equipment entry numbers are assigned to medical equipment acquired by VA facilities. The numbers are then
entered into the Automated Engineering Management System and Medical Equipment Reporting System to track
equipment inventory, and initial, corrective and preventive maintenance inspections, hazard alerts, and recalls.




VA Office of Inspector General                                                                                        3
         Alleged Preventive Maintenance Inspection Deficiencies, Northern Arizona VA HCS, Prescott, AZ


the items identified in the August 2013 environment of care rounds were inspected at
the time of our onsite visit.

VHA and TJC require facilities to establish a Medical Equipment Management Program
and develop a plan to inspect, test, and develop maintenance strategies to ensure the
safe operation of equipment used to monitor, diagnose, assess, and treat patients.5,6
The Medical Equipment Management Plan determines the PMI schedule for electrical
safety and functionality inspections based on the evaluation of risk according to
manufacturer’s recommendations, The Center for Engineering, Occupational Safety and
Health Environment of Care Guidebook (CEOSH),7 and the National Fire Protection
Association.8 Additionally, system policy9 requires safety inspection labels to be applied
to equipment indicating that the devices have passed inspection and when they are due
for re-inspection.

Issue 3: BME Department Staffing

We substantiated the allegation that the BME Department is short staffed. We found
that the system was allocated four full-time equivalent BME technician positions but did
not fill two of the vacancies after the incumbents of those positions terminated their
employment, one on January 14, 2012, and the other on June 29, 2013. The two
remaining technicians were required to complete the BME workload previously handled
by four technicians. We found that from April 1, 2013, through October 24, 2013,
46 percent of the medical equipment work orders and 68 percent of the equipment
requiring PMIs were not completed.

                                             Conclusions 

We did not substantiate the allegation that medical equipment at the system with
expired PMIs posed an immediate hazard to the safety of patients. We found no
evidence of medical equipment failures or malfunctions that contributed to the death,
serious injury, or serious illness of any individual.

We did not substantiate the allegation that all RT equipment had expired PMIs and that
several pieces of equipment had inspection stickers indicating “routine inspection not
applicable.” We found no RT equipment with expired PMIs or with inspection stickers
indicating “routine inspection not applicable.”

We did not substantiate the allegation that it was the expectation for RT equipment to
remain in use with expired PMIs.


5
  VHA CEOSH, Medical Equipment Management Guidebook, October 2011.

6
  TJC.EC.02.04.01, and TJC.EC.02.04.03

7
  VHA CEOSH Environment of Care Guidebook, July 2013. TJC requires documentation of a complete equipment

history. This includes incoming inspection, corrective and preventive maintenance (PM), hazard alerts, recalls, etc. 

8
  National Fire Protection Association Standard 99. 

9
  NAVAHCS Electrical Safety Policy, December 2008. 





VA Office of Inspector General                                                                                      4
        Alleged Preventive Maintenance Inspection Deficiencies, Northern Arizona VA HCS, Prescott, AZ


We substantiated the allegation that other departments at the system had medical
equipment with expired PMIs. We found medical equipment with expired or missing
safety inspection labels and missing equipment entry numbers.

We substantiated that the BME Department at the system is “short staffed.” We found
that the system was allocated four full-time equivalent BME technician positions but only
two of those positions were filled.

                                 Recommendations 

1. We recommended that the System Director initiate actions to address medical
equipment with expired preventive maintenance inspections, that processes be
strengthened to identify and track deficiencies to closure, and that compliance is
monitored.

2. We recommended that the System Director assess staffing in the Biomedical
Engineering Department and take appropriate actions to meet the workload
requirements.




VA Office of Inspector General                                                                     5
        Alleged Preventive Maintenance Inspection Deficiencies, Northern Arizona VA HCS, Prescott, AZ
                                                                                        Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                               Memorandum

       Date:   May 12, 2014

       From: Director, VA Southwest Health Care Network (10N18)

     Subject: 	 Healthcare Inspection—Alleged Preventive Maintenance
                Inspection Deficiencies, Northern Arizona VA Health Care System,
                Prescott, Arizona

         To:   Director, San Diego Office of Healthcare Inspections (54SD)
               Director, Management Review Service (VHA 10AR MRS OIG Hotline)

                1. I concur with the attached facility response to this draft report
                    from the OIG following their visit from October 28-29, 2013,
                    to substantiate allegations.

                2. If you have additional questions or concerns, please contact
                    Robert Baum, VISN 18 Executive Officer to the Network
                    Director, at (480) 397-2777.




               Susan P. Bowers

               Network Director





VA Office of Inspector General                                                                     6
        Alleged Preventive Maintenance Inspection Deficiencies, Northern Arizona VA HCS, Prescott, AZ
                                                                                        Appendix B
                         System Director Comments


                Department of
                Veterans Affairs                              Memorandum

      Date:     May 8, 2014

      From:     Director, Northern Arizona VA Health Care System (649/00)

    Subject: 	 Healthcare Inspection—Alleged Preventive Maintenance Inspection
                Deficiencies, Northern Arizona VA Health Care System, Prescott,
                Arizona

          To:   Director, VA Southwest Health Care System (10N18)

                 1. I concur with the findings and recommendations in the draft
                    report from the OIG following their visit from October 28-29,
                    2013, to substantiate allegations.

                2. Corrective action plans have been established, with some
                   being already implemented, and target completion dates
                   have been set for the remaining items as detailed in the
                   attached report.




                                             For

                   Donna K. Jacobs, FACHE
                   Medical Center Director
                   Northern Arizona VA Health Care System




VA Office of Inspector General                                                                     7
        Alleged Preventive Maintenance Inspection Deficiencies, Northern Arizona VA HCS, Prescott, AZ



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the System Director initiate actions to
address medical equipment items with expired preventive maintenance inspections, that
processes be strengthened to identify and track deficiencies to closure, and that
compliance is monitored.

Concur

Target date for completion: July 30, 2014

Facility response: NAVAHCS has initiated the following actions to strengthen our
process in addressing medical equipment items with expired preventive maintenance
inspections and identifying and tracking deficiencies to closure.

       1. The VISN 18 Safety Performance Dashboard and OSHA inspection reports
will be completed monthly. Data included in this report that is specific to this
recommendation is entitled "Performance Monitor - Medical Equipment Preventative
Maintenance (PM) Completion Rate and SPD Communication". These reports will be
completed by Chief of Engineering and submitted monthly to the NAVAHCS
Environment of Care Committee (EOCC) and to the VISN 18 Network Safety Manager.
NAVAHCS will monitor PM completion rate until a benchmark of 90% or greater is
maintained for 3 consecutive months. Once this benchmark is achieved, these reports
will continue to be reported to the EOCC on a quarterly basis to assure continued
sustainability.

Recommendation 2. We recommended that the System Director assess staffing in the
Biomedical Engineering Department and take appropriate actions to meet the workload
requirements.

Concur

Target date for completion: June 16, 2014

Facility response: Staffing needs in the Biomedical Engineering Department have been
assessed and the following actions have been taken to meet the workload
requirements:

       1.   A Medical Equipment Repairer 4805 was hired with start date on
February 24, 2014. A Biomedical Engineer GS-0858 has been selected with a pending
start date.




VA Office of Inspector General                                                                     8
        Alleged Preventive Maintenance Inspection Deficiencies, Northern Arizona VA HCS, Prescott, AZ


      2. In April 2014, all infusion pumps were inspected and certified by an outside
contractor.

       3. A BM technician from the Albuquerque VAMC was assigned to NAVAHCS
for 3 days to assist with PM work orders.




VA Office of Inspector General                                                                     9
        Alleged Preventive Maintenance Inspection Deficiencies, Northern Arizona VA HCS, Prescott, AZ
                                                                                        Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Sandra Khan, RN, BSN, Team Leader
                         Charles Cook, MHA
                         Deborah Howard, RN, MSN
                         Glen Pickens, RN, MHSM
                         George Wesley, MD
                         Derrick Hudson, Program Support Assistant




VA Office of Inspector General                                                                    10
        Alleged Preventive Maintenance Inspection Deficiencies, Northern Arizona VA HCS, Prescott, AZ
                                                                                        Appendix D

                                  Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Southwest Health Care Network (10N18)
Director, Northern Arizona VA Health Care System (649/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jeff Flake, John McCain
U.S. House of Representatives: Paul A. Gosar, Ann Kirkpatrick



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                    11
